>T

o. zO-

InThe

Supreme (Eaurt of tfye 3ii*ritc£r States
October Term, 2020

V* • •
Raheem Jefferson Brennerman,
Petitioner,
v.
United States of America,
Respondent,

On Petition for a Writ of Certiorari
To the United States Court of Appeals
for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI

Raheem J. Brennerman
FCI Allenwood Low
P. 0. Box 1000
White Deer, Pa. 17887-1000
Pro Se Petitioner

RECEIVED
DEC 16 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

'A

I.
1.

QUESTIONS PRESENTED

Whether the abuse of discretion standard imposed by the United

States Court of Appeals for the Second Circuit is Constitutionally
impermissible - where trial Court which had an obligation to protect the
Constitutional rights of a criminal defendant deliberately deprived him of his
Constitutional rights and the United States Court of Appeals for the Second
Circuit refused to correct the errors of trial Court.
2.

Whether trial Court abused its obligation to protect the

Constitutional rights of a criminal defendant at trial - where trial Court
deliberately caused the deprivation of a criminal defendant's Constitutional
right in an endeavor to unjustly deprive him of liberty.
PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.

i

A

i

V

II.

Table of Contents

I.

Question Presented

II.

Table of Contents

ii

III.

Table of Authorities

iv

IV.

Petition for Writ Of Certiorari

1

V.

Opinion Below

1

VI.

Jurisdiction

1

VII.

Constitutional and Statutory Provisions Involved

2

i

VIII. Statement of the Case

4

Background

LX.

6

The Criminal Referral, The Petition and Ex Parte
Conference Between Judge Kaplan and the Government

10

The Indictment and Order to Show Cause

13

The District Court’s Decision

14

The Trial and Post-Trial Proceedings

15

The Court of Appeal Decision

18

REASONS FOR GRANTING CERTIORARI

20

I.

The Second Circuit erred when it misapprehended
KEY FACTS ABOUT WHICH MORGAN STANLEY SUBSIDIARY WAS
FDIC INSURED AND MISUNDERSTOOD WHY A CONSTRUCTIVE
AMENDMENT OF THE INDICTMENT OCCURRED.......................................
The Federal Bank fraud statute required
INTENT TO DEFRAUD AN FDIC INSURED INSTITUTION AND
Petitioner's Constitutional right was violated
WHERE HIS CONVICTION FOR BANK FRAUD AND BANK
FRAUD CONSPIRACY IS ILLEGAL AND IN VIOLATION OF THE
BANK FRAUD STATUTE AND LAW..................................................

20

A.

ii

20

V

II.

B.
Constructive amendment of an indictment
OCCURS WHEN THE CHARGING TERMS ARE ALTERED AND
Petitioner's Constitutional right was violated ...

23

C.
The Circuit court's decision overlooked
THE FACT THAT PETITIONER HAD MADE ATTEMPTS TO OBTAIN
AND TO COMPEL THE PRODUCTION OF THE COMPLETE ICBC
FILE AND ERRONEOUSLY ASSUMED THAT THE ONLY INDICATION
OF THE DOCUMENTS EXISTENCE CAME FROM BRENNERMAN'S
BARE ASSERTION........................................................................

25

The Second Circuit erred because the panel's

DECISION CONFLICTS WITH SETTLED LAW ON THE SIXTH

Amendment rights of a criminal defendant to crossTHE WITNESSES AGAINST HIM AND TO PRESENT A
COMPLETE DEFENSE...............................................................................

26

X.

CONCLUSION

32

XI.

APPENDIX

33

examine

iii

III.

Table of Authorities
Cases

Abdul-Akbar v. McKelvie,
239 F.3d 307 (3d Cir. 2001)

5

Brady u. Maryland,
373 U.S. 83 (1963)

26

Crane v. Kentucky,
476 U.S. 683 (1986)

5,27

ICBC (London) PLC v. The Blacksands Pacific Group, Inc.
No. 15 Cv. 70 (LAK)..........................................................

6-9, 13

In re del Valle Ruiz,
939 F.3d 520 (2d Cir. 2019)

27, 28

Kyles v. Whitley,
514 U.S. 419(1995)

26-29

Mees v. Buiter,
793 F.3d 291 (2d Cir. 2015)

27

OSRecovery, Inc., v. One Groupe Int’l, Inc.,
462 F.3d 87 (2d Cir. 2006).................

9

Scrimo v. Lee,
935 F.3d 103 (2d Cir. 2019)

5, 30, 31

United States v. Barrett,
178 F.3d 643 (2d Cir. 1999)

21

United States v. Bershchansky,
755 F.3d 102 (2d Cir. 2015)

4

United States v. Bouchard,
828 F.3d 116 (2d Cir. 2016)

21

United States v. Brennerman,
No. 17 Cr. 155 (LAK)...

9-14, 12-14, 25-26

iv

United States v. Brennerman,
No. 17 Cr. 337 (RJS) ...

13, 15-18,21-22,25-29,31

United States v. Brennerman,
No. 18 3546 Cr., 818 F. App’x 1
(2d. Cir. June 9, 2020)(Summary Order)

1, 18-19, 31

United States v. Chapman,
524 F.3d 1073 (9th Cir. 2008)

30

United States v. Joseph,
996 F.2d 36 (3d Cir. 1993)

29

United States v. Kilroy,
488 F. Supp 2d 350 (E.D. Wis. 1981)

30

United States v. LaSpina,
299 F.3d 165 (2d Cir. 2002)

24

United States v. Patemina-Vergara
749 F.2d 993 (2d Cir. 1984)...

30

Statutes
18 U.S.C. § 20

21

18 U.S.C. §1344

2,21

28 U.S.C. §1254

1

v

IV. PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALSFOR THE SECOND CIRCUIT
Petitioner Raheem Jefferson Brennerman respectfully petitions this
Court for a writ of certiorari to review the judgment and order of the United
States Court of Appeals for the Second Circuit entered on June 9, 2020. Mr.
Brennerman's motion for rehearing en banc was denied on July 31, 2020.
V.

OPINION BELOW

On June 9, 2020, a panel of the Second Circuit affirmed Petitioner's
conviction. United States v. Brennerman, No. 18 3546, 818 F. App’x 1 (2d. Cir.
June 9, 2020) (19-497(Con)). Mr. Brennerman's motion for rehearing en banc
was denied by an Order of the Second Circuit dated July 31, 2020. United
States v. Brennerman, No. 18 3546 Cr., EFC No. 195.
VI.

JURISDICTION

The Court of Appeals' judgment affirming Petitioner's conviction and
sentence was entered on June 9, 2020. Mr. Brennerman's motion for
rehearing en banc was denied on July 31, 2020. See No. 18 3546, EFC No.
190; 195. Following a 150-day period for filing, including the ordinary 90-day
filing period plus the 60-day additional time provided by administrative order
relating to the COVID-19 pandemic, this Petition for Certiorari would have
expired on December 31, 2020. The petition is being filed postmark on or
before that date. Sup. Ct. R. 13(1); 13(3); 13(5); 29(2); 30(1). Petitioner
invokes this Court's jurisdiction under 28 U.S.C. § 1254(1).

1

VII. CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Title 18, § 1344(1) provides:
(a)
Whoever knowingly executes, or attempts to execute, a scheme
or artifice-to defraud a federally chartered or insured financial
(1)
institution, or
"(b) As used in this section, the term "federally chartered or insured
financial institution" meansa bank with deposits insured by the Federal Deposit
(1)
Insurance Corporation;
(2)
an institution with accounts insured by the Federal
Savings and Loan Insurance Corporation;
(3)
a credit union with accounts insured by the National
Credit Union Administration Board;
(4)
a Federal home loan bank or a member, as defined in
section 2 of the Federal Home Loan Bank Act (12 U.S.C. § 1422), of
the Federal home loan bank system; or
(5)
a bank, banking association, land bank, intermediate
credit bank, bank for cooperatives, production credit association,
land bank association, mortgage association, trust company,
savings bank, or other banking or financial institution organized or
operating under the laws of the United States.

The Fifth Amendment provides:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be
subject for the same offense to be twice put in jeopardy of life or limbo,
nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use,
without just compensation.

2

The Sixth Amendment provides:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation, to be confronted with the witnesses
against him, to have compulsory process for obtaining witnesses in his
favor, and to have the assistance of counsel for his defense.

3

VIII. STATEMENT OF CASE
This case presents a matter of significant public interest in
highlighting the unusual instance where the Courts, that have an obligation
to protect the Constitutional rights of a criminal defendant, veers from the
permissible to the impermissible with the Courts deliberately violating the
Constitutional rights of Petitioner. The attack on Petitioner Raheem J.
Brennerman is an attack on the rule of law, civil rights and liberties affecting
everyone as well as the very fabric of United States' democracy. The United
States Court of Appeals for the Second Circuit has a Constitutional obligation
to review de novo meaning for clear error. See United States u. Bershchansky,
755 F.3d 102, 108 (2d Cir. 2015) (internal citation and quotation marks
omitted) The Circuit Court exacerbated the Constitutional deprivation
already suffered by Petitioner by imposing a Constitutionally impermissible
abuse of discretion standard with its review.
Petitioner seeks review of this case for clarification on the obligations
of the Courts - United States Court of Appeals for the Second Circuit and the
United States District Court for the Southern District of New York
particularly where a criminal defendant's right has been so abridged and
abrogated because of his race resulting in a fundamental miscarriage of
justice.

4

The Fifth Amendment of the United States Constitution states, "No
person shall be deprived

of life, liberty or property without the due process

of law." The due process right is enshrined in the bedrock of our democracy by
imposing the equal protection of law doctrine. See Abdul-Akbar v. McKelvie,
239 F.3d 307, 316-17 (3d Cir. 2001) (en banc) (Although the Fifth Amendment
contains no Equal Protection Clause....[t]he [Supreme] Court has construed
the Fifth Amendment to contain an Equal Protection Guarantee [;]....Fifth
Amendment Equal Protection claims are examined under the same principle
that apply to such claims under the Fourteenth Amendment) (internal
citations omitted).
The Court had previously promulgated that a criminal defendant has a
Sixth Amendment right to present a complete defense. See Crane v. Ky., 476
U.S. 683 (1986) (holding that "It is a federal law that a criminal defendant
has a Constitutional right to present a complete defense). The United States
Court of Appeals for the Second Circuit recently adopted such holding in
Scrimo while creating disparity with Petitioner. Scrimo v. Lee, 935 F.3d 103
(2d Cir. 2019).
Review of this case is warranted as a matter of public interest to
emphasize conformity and uniformity with the law and Constitution among
lower Courts in ensuring adherence with their Constitutional obligations and
to avoid attack on the civil rights and liberties of criminal defendants because
of their race, sex or religion.

5

Background
The history of this matter began in 2014 when ICBC (London) PLC
sued The Blacksands Pacific Group, Inc ("Blacksands") in New York Supreme
Court primarily alleging, inter alia that Blacksands had failed to repay
approximately $4.4 million dollars extended to Blacksands pursuant to a
Bridge Loan Agreement. Significantly, Petitioner Raheem J. Brennerman,
the CEO of Blacksands, was not named as a defendant in that action. (Notice
of Removal; Cv. Cover Sheet, ICBC (London) PLC v. The Blacksands Pacific
Group, Inc., No. 15 Cv. 70 (LAK), EFC No. 1-2).
Blacksands removed the case to the Southern District of New York and
the matter was assigned to Hon. Lewis A. Kaplan, under the caption ICBC
(London) PLC v. The Blacksands Pacific Group, Inc. (Notice of Removal, No.
15 Cv. 70 (LAK), EFC No. 1). Based on the loan documents, Judge Kaplan
granted ICBC London's motion for summary judgment against Blacksands.
(Mem. Op., No. 15 Cv. 70 (LAK), EFC No. 38).
ICBC London then served Blacksands with extremely broad post­
judgment discovery requests. Blacksands counsel, Latham & Watkins LLP
("Latham") interposed objections to those demands and filed a brief in
support of those objections. (See Def. Interrog., No. 15 Cv. 70 (LAK), EFC No.
84 Ex. 2); (Mem.; Def.’s Deck, No. 15 Cv. 70 (LAK), EFC Nos. 85, 86). The
Court conducting no analysis regarding the permissible scope of post­
judgment discovery of the actual breadth of plaintiff s demands, instead in

6

conclusionary fashion declared that the objections were "baseless" and that
Blacksands "shall comply fully." (See Order, No. 15 Cv. 70 (LAK), EFC No.
87).
Subsequently, ICBC London moved for contempt and coercive
sanctions against Blacksands. (Order to Show Cause; Pl.’s Deck; Mem., No.
15 Cv. 70 (LAK), EFC Nos. 101, 102-103). On October 24, 2016, Judge Kaplan
granted ICBC London's motion holding Blacksands in contempt and
imposing coercive sanctions. (Order, No. 15 Cv. 70 (LAK), EFC No. 108). Over
the course of the next two weeks, on November 4 and November 10, 2016, Mr.
Brennerman on behalf of Blacksands provided detailed discovery responses to
ICBC London, including approximately 400 pages of documents, in an effort
to comply with ICBC London's discovery requests. (See Pl.’s Deck, No. 15 Cv.
70 (LAK), EFC. No. 123,1H[ 9, 11-12). Mr. Brennerman also made continued
efforts without support from other shareholders and partners to settle the
matter with ICBC London, including meeting with ICBC London executives
in London and providing them with even more information about Blacksands
and its pending transaction, which were pertinent to Blacksands settlement
efforts. (See Pl.’s Deck, No. 15 Cv. 70 (LAK), EFC No. 123,

45, 9, 11-12).

On December 7, 2016, ICBC London moved for civil contempt against
Mr. Brennerman personally, even though he was not a named defendant in
the matter and was not personally named in any discovery orders. (Order;
Mem.; Pl.’s Deck, No. 15 Cv. 70 (LAK), EFC Nos. 121-23). A contempt hearing

7

was scheduled for December 13, 2016, less than a week later. (Corrected
Order, No. 15 Cv. 70 (LAK), EFC No. 125).
Mr. Brennerman, however, did not have counsel. In fact, Latham
repeatedly and consistently communicated to the Court, and to Mr.
Brennerman that they did not represent Mr. Brennerman personally. (See
e.g. Letter, No. 15 Cv. 70 (LAK), EFC No. 124). Although Mr. Brennerman
was out of the country at the time he learned of the pending contempt
hearing against him, he immediately sought to retain counsel to represent
him in the contempt proceeding and wrote the Court requesting a reasonable
adjournment because he was currently outside the United States and needed
more time to retain counsel. (Email; Letter, No. 15 Cv. 70 (LAK), EFC Nos.
127-28) (Judge Kaplan was previously a partner at Paul Weiss LLP which
represented Mr. Brennerman at the time thus the law firm could not appear
before Judge Kaplan hence why Mr. Brennerman had to retain another law
firm to represent him for the contempt proceedings). Judge Kaplan denied
Mr. Brennerman's request on December 12, 2016 (Order, No. 15 Cv. 70
(LAK), EFC No. 134), and found Mr. Brennerman personally in contempt on
December 13, 2016. (Orders, No. 15 Cv. 70 (LAK), EFC Nos. 139-40). While
Mr. Brennerman had provided a substantial document production in
November, after Blacksands was found in contempt, the Court made no
mention of it and appeared not to have reviewed or considered that

8

production in its determination that Mr. Brennerman was himself in
contempt. (Orders, 15 Cv. 70 (LAK), EFC. Nos. 139-40).
On December 13, 2016 when Judge Kaplan held Mr. Brennerman
personally in contempt, he [Judge Kaplan] ignored the law from the Second
Circuit U.S. Court of Appeals in OSRecovery, where the Appeals Court stated
directly to Judge Kaplan in relevant parts: ("[T]he District Court abused its
discretion by issuing a contempt order to a non-party for failing to respond to
discovery request propounded to him as a party without providing sufficient
legal authority or explanation for treating him as a party solely for the
purpose of discovery)) and held Mr. Brennerman in contempt (even though
there were no court order[s] directed at him personally. No subpoena or
motion-to-compel were directed at him). OSRecovery, Inc., v. One Groupe
Int'l, Inc., 462 F.3d 87, 90 (2d Cir. 2006).
Judge Kaplan also ignored the federal rule to conduct extra-judicial
research into Mr. Brennerman by Googling him. (See Bail Hr.’g Tr., United
States v. Brennerman, No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 1 at 28). Then
following the erroneous contempt propounded against Mr. Brennerman,
Judge Kaplan referred him to the Manhattan federal prosecutors (United
States Attorney Office for the Southern District of New York "USAO, SDNY")
and persuaded the prosecutors to arrest Mr. Brennerman and prosecute him
criminally. (See Trial Tr., No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 2).

9

The Criminal Referral, the Petition and Ex Parte
Conference between Judge Kaplan and the Government
In late 2016 or early 2017, Judge Kaplan referred Blacksands and Mr.
Brennerman personally to the United States Attorney's Office for criminal
prosecution.
Thereafter, on March 3, 2017, the government filed a Petition seeking
to initiate criminal contempt proceedings against Blacksands and Mr.
Brennerman personally, including an Order to Show Cause for them to
appear in Court to answer the charges. On March 7, 2017, Judge Kaplan
summoned AUSAs Robert Benjamin Sobelman and Nicolas Tyler LandsmanRoos to his robing room to advise that an arrest warrant should be issued for
Mr. Brennerman. (See Trial Tr., No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 2).
The prosecution, consistent with Fed. R. Crim. P. 42, had prepared an Order
to Show Cause that would have directed Blacksands and Mr. Brennerman to
appear before the Court on a date in the future. The Court made clear,
however that it did not agree with the government's approach and advised
the prosecutors that the Court should issue an arrest warrant instead as to
Mr. Brennerman, stating his assumption that "the United States can't find
him." The prosecutors repeatedly expressed their view that execution of an
arrest warrant was not necessary under the circumstances. (See Trial Tr., No.
17 Cr. 155 (LAK), EFC No. 12 Ex. 2). The prosecutors advised, first, that Mr.
Brennerman had actually called them on Friday, March 3, 2017, the same
day that the Petition was filed to talk to them about that Petition. Id. The

10

prosecutors informed Mr. Brennerman that he could not speak with him, and
Mr. Brennerman then provided his phone number so that "there may be a
way for the government to be in touch with him via that telephone number."
The prosecutors then proposed that the Order to Show Cause previously
prepared and filed by the government, could be entered to require Mr.
Brennerman to attend the conference and "should he not appear, [] a
summons or arrest warrant be issued to secure his appearance." Id.
The Court continued to press the issue of an arrest warrant, asking
'[w]hy shouldn't I, given the history in this case issue a warrant?" (See Trial
Tr., No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 2 At 5). The Prosecutors responded
with a number of reasons, stating:
Mr. Brennerman did try to contact the government on Friday, and we
don't know that he has absconded or seeks to abscond. He's already
knowledgeable about the petition. His email address is included on the
ECF notification that went out when the petition was publicly filed.
He appears to have the resources to have fled had he intended to, and
the government thinks it's prudent to provide him an opportunity to
appear at the conference voluntarily.
Id. The prosecution went on to say that, even if the Court issued an arrest
warrant, "the government would likely provide Mr. Brennerman an
opportunity to surrender rather than dispatching law enforcement to
apprehend him without providing that opportunity." Id.
The Court pressed on, stating "I'm inclined to issue an arrest warrant"
and pushed back against the prospect that Mr. Brennerman should be
allowed to surrender: "Now, if the government is going to give him an

11

opportunity to surrender; there's a substantial question as to whether I'm
wasting my time because I think the odds are not unreasonable that he will
abscond". Id. at 6.
Eventually the prosecutors deferred to the Court and confirmed that if
an arrest warrant was issued, they would discuss in their office how best to
proceed. Id. at 7. Thus, as of March 7, 2017, when the government entered
the robing room, there was no pending investigation of fraud as to Mr.
Brennerman with the prosecutors in the Southern District of New York, and
the government was prepared to proceed with a contempt proceeding by
Order to Show Cause and had no concern that Mr. Brennerman would seek to
abscond.
Thus pursuant to the arrest warrant prepared and signed by Judge
Kaplan, Mr. Brennerman was arrested on April 19, 2017 at his home in Las
Vegas. As of the date of the arrest warrant and because the Court had
declined to sign the order to show cause presented by the government, there
was no actual contempt charge pending against Mr. Brennerman. The Court
omitted Mr. Brennerman from the signed Order to Show Cause but then
failed to otherwise rule or grant the government's Petition as it related to
Mr. Brennerman. There was, therefore, no proper basis for the arrest
warrant. The Court's decision to alter the warrant to reference the Petition
was inadequate to support the warrant. (The arrest warrant included an
option for a Probation Violation Petition; those instruments, unlike a Petition

12

in a contempt proceeding, actually do charge an offense). (See Arrest
Warrant, No. 17 Cr. 155 (LAK), EFC No. 12 Ex. 3).
Mr. Brennerman's arrest on April 19, 2017 (when government seized
his electronic devices and documents (which was adduced as evidence (emails between Mr. Brennerman (on behalf of Blacksands) and Madgett
(ICBC London) at trial of the contempt and fraud case (where the
government actually never obtained or reviewed any pertinent ICBC
transaction files from ICBC (London) pic) was in violation of both Mr.
Brennerman's Fourth and Fifth Amendment rights.
The Indictment and Order to Show Cause
On May 31, 2017, weeks after Mr. Brennerman was released on bail in
the criminal contempt of court case, he was re-arrested by the U.S.
Attorney's Office pursuant to an indictment alleging fraud in connection with
the transaction that was at issue in the underlying civil action, No. 15 Cv. 70
(LAK) between ICBC (London) PLC and The Blacksands Pacific Group, Inc
(even though the civil action had been ongoing for two and half years at that
point) Mr. Brennerman was charged with Conspiracy to commit bank and
wire fraud, bank fraud and wire fraud. Id. The case was assigned to Hon.
Richard J. Sullivan, under the caption, United States v. Brennerman, No. 17
Cr. 337 (RJS).
In August 2017, because Judge Kaplan had failed to sign the Order to
Show Cause as it related to Mr. Brennerman in the criminal contempt of

13

court case at No. 17 Cr. 155 (LAK) (even though Mr. Brennerman had been
arrested at the behest of Judge Kaplan) he had revoked the bail granted to
Mr. Brennerman even without any violations of the bail conditions. The
government realizing their error filed a new two count Order to Show Cause
Petition formally charging Mr. Brennerman in the criminal contempt of court
case. (See Order to Show Cause, Brennerman No. 17 Cr. 155, EFC No. 59).

The District Court's decision
In August 2017, prior to trial for the criminal contempt of court case,
Mr. Brennerman sought to obtain the complete ICBC records (including the
underwriting file and negotiations between agents of Blacksands and ICBC
London) to demonstrate his innocence and to present a complete defense.
However Mr. Brennerman's request to the Manhattan federal prosecutors
was denied. The [Manhattan federal prosecutors] refused to obtain or review
the complete ICBC records including the underwriting files, arguing that
they were not obligated to collect any additional evidence from ICBC London
beyond what the bank had selectively provided to them. Judge Kaplan also
denied Mr. Brennerman's request seeking to compel the complete ICBC
record. See 17-cr-155 (LAK), Dkt. No. 76
In November 2017, prior to trial for the fraud case, Mr. Brennerman
made request to Judge Sullivan in his motion-in-limine requesting that the
Court exclude the testimony of any witness from ICBC London because he
had been unable to obtain the complete ICBC records including the

14

underwriting files, which he required to engage in cross-examination of the
witness and that the government will be able to elicit testimony from such
witness while he would be deprived of the ability to engage in any meaningful
cross-examination of the witness as to substance and credibility on the issues.
Mr. Brennerman argued that his Constitutional rights including his right to
a fair trial will be deprived. Mr. Brennerman also argued that he would be
deprived of his ability to present a complete defense, thus depriving his Sixth
Amendment right. However Judge Sullivan denied his request. (See Mem. in
Opp’n; Mot. in Lim.; Mem. In Supp., No. 17 Cr. 337 (RJS), EFC Nos. 54, 58,
59).
The Trial and Post-Trial Proceedings
During trial, following testimony by government sole witness from
ICBC London, Julian Madgett that evidence (ICBC underwriting files)
existed with the bank's file which document the basis for approving the
bridge finance including representations relied upon by the bank in
approving the bridge finance and that the prosecution never requested or
obtained the ICBC underwriting files, thus never provided it to the defense.
(Trial Tr., No. 17 Cr. 337 (RJS), at 551-554). Mr. Brennerman again filed
motion to compel for the evidence arguing that he required it to present a
complete defense (that the bank did not rely on any representation or alleged
misrepresentation in approving the bridge finance) and to confront witness
against him. (See Letter Mot., No. 17 Cr. 337 (RJS), EFC No. 71). Judge

15

Sullivan denied Mr. Brennerman's request while acknowledging that
government's witness, Julian Madgett had testified that the evidence (ICBC
underwriting files) were with the bank's file in London, U.K. (See Trial Tr.,
No. 17 Cr. 337 (RJS), at 617).
Government presented evidence - Government Exhibits GX1-57A;
GXl-73; GX529 to demonstrate that Mr. Brennerman opened a wealth
management account at Morgan Stanley. (See Def.’s Letter, No. 17 Cr. 337
(RJS), EFC No. 167). The evidence presented clearly demonstrated that the
wealth management account was opened at Morgan Stanley Smith Barney,
LLC. Government witness, Kevin Bonebrake testified that he worked for the
Institutional Securities division of Morgan Stanley which is a wholly-owned
subsidiary of Morgan Stanley & Company LLC (See Trial Tr., No. 17 Cr. 337
(RJS), at 384-385); That "this was very preliminary stage of our conversation"
(See Trial Tr., No. 17 Cr. 337 (RJS), at 409); That "Morgan Stanley would not
typically provide the money"; "It would seek financing from outside
investors," and "my recollection was that what the company wanted was
unclear. We didn't get very far in our discussion." (See Trial Tr., No. 17 Cr.
337 (RJS), at 387-388).
Government presented four FDIC certificates - Government Exhibit GX530 (FDIC certificate for Morgan Stanley Private Bank); GX531 (FDIC
certificate for Citibank); GX532 (FDIC Certificate for Morgan Stanley
National Bank NA); GX533 (FDIC certificate for JP Morgan Chase).

16

Another Government witness, Barry Gonzalez, FDIC commissioner
testified "that the FDIC certificate of one subsidiary does not cover another
subsidiary or the parent company because each will require its own separate
FDIC certificate (See Trial Tr., No. 17 Cr. 337 (RJS), at 1060-1061). Testified
that FDIC certificate only cover depository accounts and would not cover the
Institutional Securities division/subsidiary of Morgan Stanley (See Trial Tr.,
No. 17 Cr. 337 (RJS), at 1057); That there was no confirmation that Morgan
Stanley Smith Barney, LLC was FDIC insured. (See Trial Tr., No. 17 Cr. 337
(RJS), at 1059). His testimony demonstrated that neither ICBC (London)
PLC, Morgan Stanley Smith Barney, LLC or Morgan Stanley Institutional
Securities division/subsidiary are FDIC insured. (See Trial Tr., No. 17 Cr. 337 '
(RJS), at 1059-1061).
The trial commenced on November 26, 2017 and concluded on
December 6, 2017 with the jury returning a guilty verdict on all counts.
After trial, Mr. Brennerman again moved to compel for the ICBC
underwriting files to prepare his post-trial motions however Judge Sullivan
denied his requests. (See Orders, No. 17 Cr. 337 (RJS), EFC Nos. 153, 161,
187, 200, 235, 236, 240, 241). Judge Sullivan also ignored evidence which Mr.
Brennerman presented to the Court to demonstrate that there was a
statutory error with his conviction for bank fraud as it relates to his
interaction with non-FDIC subsidiaries of Morgan Stanley however Judge

17

Sullivan ignored him and ultimately denied his post-trial motions. (See Def.’s
Letter, No. 17 Cr. 337 (RJS), EFC No. 167).

The Court of Appeal decision
The United States Court of Appeals for the Second Circuit affirmed
Mr. Brennerman's conviction and sentence in a Summary Order on June 9,
2020.

The Court misapprehended the record with respect to the FDIC
insured status of Morgan Stanley and overlooked Mr. Brennerman's
argument about the non FDIC insured personal wealth division (Morgan
Stanley Smith Barney, LLC) and the non-FDIC-insured Institutional
Securities division, generalizing that:
[T]he record did establish that he defrauded Morgan Stanley, an
FDIC-insured institution, as part of his broader scheme by,
among other things, inducing it to issue him a credit card based
on false representation about his citizenship, assets, and the
nature and worth of his company.
(Slip Op., United States v. Brenner man, No. 18 3546, EFC No. 183 at 3).
With respect to Mr. Brennerman's Constructive amendment
argument, the Circuit Court similarly misunderstood the crucial distinction
between the subsidiary divisions of Morgan Stanley, relying on the
Government's arguments at summation and finding that no constructive
amendment had occurred because:
It is clear from the indictment that the scheme against ICBC was
merely one target of Brennerman's alleged fraud
.At trial, the
government offered evidence that Morgan Stanley was one of those

18

"other financial institutions." See App'x at 608-09 (testimony of
Morgan Stanley's Kevin Bonebrake about a January 2013 telephone
call with Brennerman discussing financing to develop asset). Thus,
there was not a "a substantial likelihood that the defendant may have
been convicted of an offence other than that the one charged by the
grand jury." United States v. Vebeliunas, 76 F.3d at 1290.
(Slip Op., No. 18 3546, EFC No. 183 at 4).
With respect to the ICBC file, the Circuit Court disagreed with Mr.
Brennerman on the first two points and did not issue a written opinion on the
third, writing that:
The government's discovery and disclosure obligations
extend only to information and documents in the government's
possession. United States v. Avellino, 136 F.3d 249, 255 (2d Cir.
1998) (explaining that the Brady obligation applies only to
evidence "that is known to the prosecutor"). The government
insists that every document it received from ICBC was turned
over to Brennerman and that it is not aware of the personal
notes referenced by Brennerman. Therefore, the government has
not violated its disclosure obligations. Nor was the government
under any obligation under the Jencks Act to collect materials
about Madgett that were not in the government's possession.
See United States v. Bermudez, 526 F.2d 89, 100 n.9 (2d Cir.
1975).
Even if the documents exist and are material and favorable,
Brennerman never sought a subpoena pursuant to Federal Rule
of Criminal Procedure 17
The only indication that such
documents are extant comes from Brennerman's bare
assertions.
(Slip Op., No. 18 3546, EFC No. 183 at 4-5).
The panel denied a motion for rehearing by order dated July 31, 2020.

19

IX.

REASON FOR GRANTING CERTIORARI
ARGUMENT

This Petition presents an opportunity for the Court to clarify (a.)
whether the abuse of discretion standard imposed by United States Court of
Appeals for the Second Circuit is Constitutionally permissible - where the
Circuit Court refused to correct errors which substantively abridges and
abrogates the rights of criminal defendant which are protected by the United
States Constitution and (b) where trial Court deliberately deprived the
criminal defendant of his Constitutional rights thus violating his Fifth and
Sixth Amendment rights of the U.S. Constitution.
This case will clarify the obligations of lower Courts as a matter of
public interest to emphasize conformity and uniformity with the law and
Constitution among lower Courts in ensuring adherence with their
Constitutional obligations and avoid attack on the civil rights and liberty of
criminal defendants because of their race, sex or religion.
I.

The Second Circuit erred when it misapprehended key

FACTS ABOUT WHICH MORGAN STANLEY SUBSIDIARY WAS FDIC
INSURED AND MISUNDERSTOOD WHY A CONSTRUCTIVE AMENDMENT OF
THE INDICTMENT OCCURRED.

A.

The Federal Bank fraud statute requires intent to

DEFRAUD AN FDIC-INSURED INSTITUTION AND PETITIONER'S
Constitutional right was violated where his conviction for
BANK FRAUD AND BANK FRAUD CONSPIRACY IS ILLEGAL AND IN
VIOLATION OF THE BANK FRAUD STATUTE AND LAW.

20

I

Title 18 United States Code § 1344 makes it a crime to "knowingly
execut[e], or attempft] to execute, a scheme or artifice - (1) to defraud a
financial institution; ..." "The well established elements of the crime of bank
fraud are that the defendant (1) engaged in a course of conduct designed to
deceive a federally chartered or insured financial institution into releasing
property, and (2) possessed an intent to victimize the institution by exposing
it to actual or potential loss." United States v. Barrett, 178 F.3d 643, 647-48
(2d Cir. 1999); See also 18 U.S.C. § 20 (defining "financial institution"). "[A]
defendant cannot be convicted of violating § 1344(1) merely because he
intends to defraud an entity...that is not in fact covered by the statute."
United States v. Bouchard, 828 F.3d 116, 125 (2d Cir. 2016).
Petitioner was convicted of bank fraud and bank fraud conspiracy
based on an account he opened at Morgan Stanley Smith Barnet, LLC. (See
Def.’s Letter, No. 17 Cr. 337 (RJS), EFC No. 167) (highlighting Government
Exhibit - GX1-57A; GX1-73; GX529 - Morgan Stanley Smith Barney, LLC
account opening form, correspondence and account statement). The
government failed to confirm through government witness, Barry Gonzalez,
the FDIC commissioner that Morgan Stanley Smith Barney, LLC was/is
FDIC insured. The Court also stated that Brennerman had a single telephone
call with Kevin Bonebrake (See Trial Tr, No. 17 Cr. 337 (RJS), at 387-388;
409) who worked at Morgan Stanley Institutional Securities division (See
Trial Tr, No. 17 Cr. 337 (RJS), at 384-385) which is not FDIC insured.

21

Although Petitioner's wealth management account at Morgan Stanley
Smith Barney, LLC was not a depository account, the funds were held by
Morgan Stanley Smith Barney, LLC in a depository account at Morgan
Stanley Bank National Association. Any statements made by Petitioner to
Scott Stout, who worked at Morgan Stanley Smith Barney, LLC would have
been insufficient to establish that Petitioner took any step toward defrauding
an FDIC-insured institution.
When Petitioner presented evidence to Judge Sullivan at No. 17 Cr.
337 (RJS), EFC. No. 167, demonstrating that his account was held at Morgan
Stanley Smith Barney, LLC which is not FDIC insured and not at Morgan
Stanley Private Bank, the judge ignored him. The judge also ignored the
testimony by Barry Gonzalez, FDIC commissioner which confirmed that
neither Morgan Stanley Smith Barney, LLC (See Trial Tr., No. 17 Cr. 337
(RJS), at 1059) or Morgan Stanley Institutional Securities division (See Trial
Tr., 17-cr-337 (RJS), at 1057) are FDIC insured. Further that the FDIC
certificate or one subsidiary/di vision does not cover other subsidiary/division
within Morgan Stanley because each subsidiary/division will require its own
FDIC certificate. (See Trial Tr., No. 17 Cr. 337 (RJS), at 1060-1061). Thus
highlighting that the FDIC certificates presented by the government at trial
for Morgan Stanley Private Bank (See Government Exhibit - GX530) and
Morgan Stanley National Bank NA (See Government Exhibit - GX532) does
not cover either Morgan Stanley Smith Barney, LLC or Morgan Stanley

22

Institutional Securities division which Petitioner interacted with and thus
Petitioner could not be convicted for bank fraud and bank fraud conspiracy
for interacting with institutions which are not FDIC insured.
Notwithstanding these evidence and confirmation, Judge Sullivan allowed
Petitioner to be wrongly convicted.
On appeal, the Second Circuit ignored Petitioner's argument while
stating that Petitioner defrauded Morgan Stanley, an FDIC insured
institution by receiving perks (even though Petitioner was not charged for
receiving perks) and for making a single telephone call to Kevin Bonebrake to
discuss about financing without acknowledging the testimony from Barry
Gonzalez which did not confirm that either Morgan Stanley Smith Barney,
LLC or Morgan Stanley Institutional Securities division are FDIC Insured to
satisfy the essential element necessary to convict for bank fraud. That
Morgan Stanley has different subsidiaries and divisions, further than each
subsidiary/division will require its own FDIC certificate as the FDIC
certificate of one subsidiary/division does not cover the other
sub sidiary/division.
B.

Constructive Amendment of an indictment occurs

WHEN THE CHARGING TERMS ARE ALTERED AND PETITIONER'S
Constitutional right was violated

Constructive amendment of an indictment "occurs when the charging
terms of the indictment are altered, either literally or in effect, by prosecutor
or court after the grand jury has last passed upon them." United States u.

23

LaSpina, 299 F.3d 165, 181 (2d Cir. 2002) (citations omitted). "To prevail on a
constructive amendment claim, a defendant must demonstrate that the proof
at trial....so altered an essential element of the charge that, upon review, it is
uncertain whether the defendant was convicted of conduct that was the
subject of the grand jury's indictment." LaSpins, 299 F.3d at 181 (citations
omitted).
Petitioner was indicted with "having made false representation to
financial institutions in the course of seeking loans and other forms of
financing for purported business ventures" however during summation the
prosecution and again during appearance on November 19, 2018 (sentencing
hearing) the Court, each argued the theory of the bank fraud and bank fraud
conspiracy that the defendant became entitled to "perks" including fancy
credit card and preferential interest rate however the defendant was not
charged with obtaining perks. Moreover the fancy credit card was not issued
by any Morgan Stanley subsidiary or division and was closed with zero
balance. The account which the defendant opened at Morgan Stanley Smith
Barney, LLC was only opened for three weeks and not long enough for him to
earn any perks. Most important, both Morgan Stanley Smith Barney, LLC
where Petitioner opened his account and Morgan Stanley Institutional
Securities division where Kevin Bonebrake (whom he had a single telephone
call about financing) worked at are not FDIC insured, an essential element
necessary to convict for bank fraud and bank fraud conspiracy.

24

On appeal, when the Petitioner highlighted the constructive
amendment issue, the Second Circuit refused to review the record on which
Petitioner was convicted (theory of bank fraud) and statement made by trial
court during appearance on November 19, 2018 (sentencing hearing) as to the
theory of the bank fraud which was argued by the government and trial judge
as receiving perks and as to his single telephone call to Kevin Bonebrake
about financing. The Court also stated that there was no constructive
amendment because the Petitioner spoke to Kevin Bonebrake who worked for
the Institutional Securities division of Morgan Stanley without
acknowledging the trial records which clearly demonstrated that the
Institutional Securities division of Morgan Stanley is not covered by any
FDIC certificate thus cannot satisfy the essential element to convict for bank
fraud and bank fraud conspiracy.
C.
The Circuit Court's decision overlooked the fact
THAT BRENNERMAN HAD MADE ATTEMPTS TO OBTAIN AND TO
COMPEL THE PRODUCTION OF THE COMPLETE ICBC FILE AND
ERRONEOUSLY ASSUMED THAT THE ONLY INDICATION OF THE
DOCUMENT'S EXISTENCE CAME FROM BRENNERMAN'S BARE
ASSERTIONS.
Both during the related case in front of Judge Kaplan {United, States u.
Brennerman, No. 17 Cr.155 (LAK)) and in the instant case from which this
petition arose {United States v. Brennerman, No. 17 Cr. 337 (RJS)) in front of
Judge Sullivan, Petitioner moved for discovery of the full ICBC file related to
the bridge loan to Blacksands. Petitioner avers as confirmed by government
witness that the file would contain ICBC employee Julian Madgett's notes

25

related to the credit paper, underwriting documents and credit decision to
approve the loan and would support Petitioner's theory of defense. (See Trial
Tr., No. 17 Cr. 337 (RJS), at 551-554). Both Judge Kaplan and Judge Sullivan
denied Petitioner's request for a subpoena to obtain these documents; Judge
Sullivan additionally declined to compel the Government to produce them at
trial even after government witness, Julian Madgett testified to its existence
in open Court. See., e.g., (Mem. & Order, No. 17 Cr. 155 (LAK), EFC No. 76);
(Def.’s Letter Mot., No. 17 Cr. 337 (RJS), EFC No. 71); (Trial Tr., No. 17 Cr.
337 (RJS), at 551-554); (Trial Tr., No. 17 Cr. 337 (RJS), at 617).
For these reasons, the Second Circuit was mistaken that the record
contained no evidence that Petitioner had attempted to obtain the complete
ICBC files and the Court's assumption that the only indication that such
documents (ICBC file) are extant came from Petitioner's bare assertion was
erroneous.
II.

The Second Circuit erred because the panel's decision

CONFLICTS WITH SETTLED LAW ON THE SIXTH AMENDMENT RIGHTS OF
A CRIMINAL DEFENDANT TO CROSS-EXAMINE THE WITNESSES AGAINST
HIM AND TO PRESENT A COMPLETE DEFENSE.

The Due Process Clause requires the Government to make a timely
disclosure of any exculpatory or impeaching evidence that is material and in
its possession. See Brady v. Maryland, 373 U.S. 83 (1963); Giglio v. United
States, 405 U.S. 150 (1972). The Government is further obligated under
Kyles, to "learn of any favorable evidence known to the others acting on the

26

government's behalf in the case, including the police." Kyles v. Whitley, 514
U.S. 419, 437 (1995).
In some circumstances, discovery may be obtained from abroad. In re
del Valle Ruiz, 939 F.3d 520, 533 (2d Cir. 2019) ("[A] district court is not
categorically barred from allowing discovery....of evidence located abroad....")
(internal reference omitted). "[I]t is far preferable for a district court to
reconcile whatever misgivings it may have about the impact of its
participation in the foreign litigation by issuing a closely tailored discovery
order rather than by simply denying relief outright." Mees v. Buiter, 793 F.3d
291, 302 (2d Cir. 2015).
Petitioner was deprived of the ability to present a complete defense in
violation of his Sixth Amendment right as promulgated by the United States
Supreme Court in Crane v. Ky., where Petitioner requested for evidence
(ICBC underwriting files) at No. 17 Cr. 337 (RJS), EFC No. 71, following
testimony by government sole witness from ICBC London, Julian Madgett
(See Trial Tr., No. 17 Cr. 337 (RJS), at 551-554) that evidence (the ICBC
underwriting files) existed with the bank's file which document the basis for
approving the bridge finance including representations relied upon by the
bank in approving the bridge finance. Crane v. Ky., 476 U.S. 683 (1986).
The prosecution never requested or obtained the ICBC underwriting
files, thus never provided it to the defense. When Brennerman requested for
the files so that he may use it in presenting a complete defense (that the bank

27

did not rely on any representation or alleged misrepresentation in approving
the bridge finance) and confront witness against him, trial judge (Judge
Richard J. Sullivan) denied his request while acknowledging that the
prosecution witness, Julian Madgett had testified that the evidence (ICBC
underwriting files) existed with the bank's file in London, U.K. (See Trial Tr.,
No. 17 Cr. 337 (RJS). at 617). The Judge's denial was in contrast with the
Second Circuit ruling in In re del Valle Ruiz, which stated that District
Courts were not categorically barred from permitting evidence located
abroad. In re del Valle Ruiz, 939 F.3d 520 (2d Cir. 2019).
Moreover trial judge permitted government sole witness from ICBC
London, Julian Madgett to testify as to the content of the ICBC Underwriting
files (to satisfy the essential element of "MATERIALITY") while Petitioner
was deprived of the ability to engage in any meaningful cross-examination of
the witness depriving him a fair trial.
Under Kyles Government had an obligation to learn of any favorable
evidence known to the others acting on the Government behalf in the case,
thus when Government witness, Julian Madgett testified in open Court that
evidence (ICBC underwriting file) existed in the bank's file which document
the basis for approving the bridge finance including representation relied
upon by the bank in approving the bridge finance which Government never
requested or obtained. (Trial Tr., No. 17 Cr. 337 (RJS), at 551-554).
Government had an obligation to collect the evidence after learning of its

28

existence particularly where Petitioner made request to the Court (for among
others) that the Court compel Government to collect the evidence (ICBC
underwriting file). (Def.’s Letter Mot., No. 17 Cr. 337 (RJS), EFC No. 71).
However Government's failure to collect or learn of the evidence violated its
Brady obligations.
It follows that if Government never obtained or reviewed the pertinent
evidence (ICBC underwriting file) it [Government] failed to conduct any
independent investigation on the transaction at issue prior to indicting and
prosecuting Petitioner thus deliberately violating Petitioner's right to the
Due Process clause. The Court (Judge Richard J. Sullivan) exacerbated the
Constitutional violation when it refused to compel Government to satisfy its
Brady obligation, particularly following the testimony by Government
witness, Julian Madgett that pertinent evidence (ICBC underwriting file)
existed which Government never obtained or reviewed. Thus, the Court and
Government deliberately violated Petitioner's right to the Due Process
clause.
Courts have required the Government to disclose evidence material to
the defense where the Government ''actually or constructively" possesses it.
E.g., United States v. Joseph, 996 F.2d 36, 39 (3d Cir. 1993) ("The prosecution
is obligated to produce certain evidence actually or constructively in its
possession or accessible to it." (internal quotation marks omitted)); cf. Kyles v.
Whitley, 514 U.S. 419, 437 (1995) (holding that to satisfy Brady and Giglio

29

prosecutors have "a duty to learn of any favorable evidence known to the
others acting on the Government's behalf in the case"). In particular in
Patemina-Vergara, the Second Circuit held that the Government had an
obligation to make good faith effort to obtain Jencks Act statements
possessed by a third party that had cooperated extensively and had close
working relationship with the Government, United States v. PateminaVergara 749 F.2d 993 (2d Cir. 1984); see also United States v. Kilroy, 488 F.
Supp 2d 350, 362 (E.D. Wis. 1981) ("since Standard Oil is cooperating with
the Government in the preparation of the case and is making available to the
Government for retention in the Government's files any record which
Standard Oil has and which the Government wants, however, is not
unreasonable to treat the records as being within the Government's control
at least to the extent of requiring the Government to request the records on
the defendant's behalf and to include them in its files for the defendant's
review if Standard Oil agrees to make them available to the Government."
(emphasis added)). See also United States v. Chapman, 524 F.3d 1073 (9th
Cir. 2008).1
On appeal, the Second Circuit that recently made decision in Scrimo,
which stated that "It is a federal law that a criminal defendant has a
Constitutional right to present a complete defense" ignored Petitioner's

1 Courts have granted motions to dismiss an indictment where the Government fails to satisfy its
discovery and disclosure obligation, either on the basis of a Due Process violation or under the Court's
inherent supervisory powers, including when the Government belatedly disclosed Jencks Act materials.
E.g., United States v. Chapman, 524 F.3d 1073 (9th Cir. 2008).

30

?

argument that he was deprived of his Constitutional right to present a
complete defense. (Summ. Order, No. 18 3546(L), EFC No. 186); Scrimo v.
Lee, 935 F.3d 103 (2d Cir. 2019). The Second Circuit also made an erroneous
statement that "the only indication that the evidence is extant comes from
Brennerman's bare assertion" Such statement was/is inaccurate and in
contrast with the trial records which clearly highlight government witness,
Julian Madgett, confirming that the evidence are extant and with the bank's
file in London, U.K. (See Trial Tr., No. 17 Cr. 337 (RJS), at 551-554); (Summ.
Order, No. 18 3546(L), EFC No. 186 at 5).
The danger of the Second Circuit's rule is amply demonstrated by the
consequences of erosion of public trust in the United States justice system
and other institutions. As the Fourth Circuit recently promulgated "what
gives people confidence in our justice system is not that we merely get things
right rather, it is that we live in a system that upholds the rule of law even
when it is inconvenient to do so". The lower courts - United States Court of
Appeals for the Second Circuit and United States District Court for the
Southern District of New York veered from the rule of law in this case.
Interests of comity - in addition to fairness and substantial justice as
embodied in the Due Process Clause and the U.S. Constitution - warrant
reversal of the Second Circuit's decision.

31

X.

CONCLUSION

The petition for certiorari should be granted.
Dated:

White Deer, Pennsylvania
December 1, 2020
Respectfully submitted,
/s/ Raheem J. Brennerman
Raheem Jefferson Brennerman
Reg. No. 54001-048
FCI Allen wood Low
White Deer, Pa. 17887-1000
Petitioner Pro Se

32

XI.

APPENDIX TABLE OF CONTENTS

Order of the United States Court of
Appeals for the Second Circuit in
United States v. Brennerman, No. 18 3546 Cr.
(Affirming Conviction and Sentence)..............

APPENDIX A (la)

Judgment of Conviction
United States District Court for the Southern District of N.Y.
in United States v. Brennerman, No. 17 Cr. 337
APPENDIX B (8a)
Motion for Rehearing en banc at the
United States Court of Appeals
for the Second Circuit, No. 18 3546 Cr.,
EFC No. 190............................................

APPENDIX C (25a)

Order of the United States Court
of Appeals for the Second Circuit
denying motion for Rehearing en banc in
United States u. Brennerman, No. 18 3546 Cr.,
EFC No. 195........................................................

APPENDIX D (50a)

Opinion and Order of the United States
District Court for the Southern District of N.Y.
in United States v. Brennerman, No. 17 Cr. 155
(EFC No. 76).........................................................

APPENDIX E (52a)

Motion and Order of the United States
District Court for the Southern District of N.Y.
in United States v. Brennerman, No. 17 Cr. 337
(EFC Nos. 54; 58-59; 71; 167)..............................

APPENDIX F (56a)

Transcript of Proceedings and Oral Ruling
United States District Court for the Southern District of N.Y.
United States v. Brennerman, No. 17 Cr. 337
(Trial Tr. 551-554; 617).
(Trial Tr. 384-385; 409; 387-388)
(Trial Tr. 1060-1061; 1057; 1059-1061)
APPENDIX G (139a)
Transcript of Proceedings and Oral Ruling
United States District Court for the Southern District of
N.Y. in United States v. Brennerman, No. 17 Cr. 337
(Sentencing Hr’gTr., November 19, 2018)......................... APPENDIX H (156a)

33

/
(f

CERTIFICATE OF COMPLIANCE
No. 20-

RAHEEM JEFFERSON BRENNERMAN
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent,
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 7,613 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 1, 2020
/s/ Raheem J. Brennerman
RAHEEM JEFFERSON BRENNERMAN
Petitioner

